                 AUDIT OF 

 THE OFFICE ON VIOLENCE AGAINST WOMEN 

   SAFE HAVENS GRANT AWARDED TO THE 

MICHIGAN DEPARTMENT OF HUMAN SERVICES 

           LANSING, MICHIGAN 



        U.S. Department of Justice 

      Office of the Inspector General 

               Audit Division 


       Audit Report GR-50-13-002 

              October 2012 

  AUDIT OF THE OFFICE ON VIOLENCE AGAINST WOMEN

                                               

        SAFE HAVENS GRANT AWARDED TO THE
 

     MICHIGAN DEPARTMENT OF HUMAN SERVICES
 

                LANSING, MICHIGAN
 


                        EXECUTIVE SUMMARY

                                         


      The U.S. Department of Justice, Office of the Inspector General, Audit
Division, has completed an audit of an Office on Violence Against Women
grant awarded to the Michigan Department of Human Services (Michigan
DHS). Michigan DHS was awarded $649,872 under grant number
2009-CW-AX-K003 in October 2009 to fund supervised child visitation and
exchange programs. In collaboration with three subgrantees, Michigan DHS
used grant funding to seek to increase options for supervised visitation and
safe exchange; reduce acts of violence and intimidation; and contribute to
the well-being of victims of domestic violence and their children in the
counties of Kent, Saginaw, and Washtenaw, Michigan.

      The objective of our audit was to review performance in the following
areas: (1) internal control environment; (2) drawdowns; (3) grant
expenditures, including personnel costs; (4) budget management and
control; (5) matching costs; (6) accountable property; (7) program income;
(8) federal financial and progress reports; (9) grant award requirements;
(10) program performance and accomplishments; and (11) monitoring of
subgrantees and contractors. We determined that matching costs,
accountable property, indirect costs, program income, and monitoring of
contractors were not applicable to this grant.

      As of June 30, 2012, the grantee had drawn down $474,310 in grant
funds and had recorded expenses totaling $495,183. We examined
Michigan DHS’s accounting records, federal financial and progress reports,
and operating policies and procedures. Our audit revealed that
Michigan DHS generally complied with grant guidelines and requirements.
Our audit objectives, scope, and methodology are discussed in Appendix I of
the report.
                              TABLE OF CONTENTS

                                               


INTRODUCTION……. ................................................................. 1

                                                                                   


     Background.......................................................................... 1

                                                                                           

     Our Audit Approach............................................................... 2
  


FINDINGS …………… ................................................................. 4

                                                                                  


     Accounting and Internal Controls ............................................ 4
     

     Grant Drawdowns ................................................................. 5
 

     Grant Expenditures ………………………………………………………………………..6
                                   

     Budget Management and Control ............................................ 9
        

     Grant Reporting.................................................................... 9

                                                                                          

     Compliance with Grant Requirements .....................................11
          

     Program Performance and Accomplishments ...........................11
               

     Monitoring Subgrantees........................................................12
    

     Views of Responsible Officials ................................................13
   


APPENDIX I:          OBJECTIVES, SCOPE, AND METHODOLOGY .... 14

                                                               


APPENDIX II:         AUDITEE RESPONSE....................................... 16

                                                                               


APPENDIX III: OFFICE ON VIOLENCE AGAINST WOMEN
                 

                 RESPONSE............................................... 17

                                                                           

                                   INTRODUCTION
       The Department of Justice (DOJ), Office of the Inspector General,
Audit Division, has completed an audit of an Office on Violence Against
Women (OVW) grant awarded to the Michigan Department of Human
Services (Michigan DHS), located in Lansing, Michigan. Michigan DHS was
awarded $649,872 under grant number 2009-CW-AX-K003 to fund
supervised child visitation and exchange programs to increase options for
families with a history of domestic violence, child abuse, sexual assault, or
stalking. The state of Michigan and its collaborative partners received
funding from OVW to increase options for supervised visitation and safe
exchange; reduce acts of violence and intimidation; and contribute to the
well-being of victims of domestic violence and their children in the counties
of Kent, Saginaw, and Washtenaw, Michigan.

     As shown in the following table, Michigan DHS was awarded a total of
$649,872 to support these programs.

     TABLE 1. OFFICE ON VIOLENCE AGAINST WOMEN GRANT TO 

           MICHIGAN DEPARTMENT OF HUMAN SERVICES 

                      PROJECT         PROJECT         AWARD
 AWARD NUMBER                                                            OBJECTIVE
                     START DATE      END DATE         AMOUNT
                                                                To increase options for
                                                                supervised visitation and
                                                                safe exchange, reduce acts
2009-CW-AX-K003     10/ 01/ 2009    09/ 30/ 2012     $649,872   of viole nce and intimidation ,
                                                                and contribute to the well­
                                                                being of victims of domestic
                                                                violence and their children .

                                            Total:   $649872
Source. Office on Vio lence Against Women

Background
       OVW provides federal leadership in developing the nation's capacity to
reduce violence against women and strengthen services to victims of
domestic violence, dating violence, sexual assault, and stalking. Created in
1995, OVW administers financial and technical assistance to communities
across the country that are developing programs, policies, and practices
aimed at ending domestic violence, dating violence, sexual assault, and
stalking. Since its inception, OVW has awarded over $4.7 billion in grants
and cooperative agreements.

      The Michigan Domestic Violence Prevention and Treatment Board was
established within the Michigan Family Independence Agency (now known as
Michigan DHS) in 1978 by state legislation that created a Governor-
appointed Board responsible for focusing state activity on domestic violence.
The Board administers state and federal funding for domestic violence
shelters and advocacy services, develops and recommends policy, and
develops and provides technical assistance and training. The seven-member
Board represents a cross-section of professions concerned with the crime of
domestic violence. The Governor, with the advice and consent of the state
Senate, appoints members. Staff provided by the Michigan DHS assist the
Board in carrying out their legislative charge. 1

      The objective of the audited grant program is to increase options for
supervised child visitation and safe exchange, reduce acts of violence and
intimidation, and contribute to the well-being of victims of domestic violence
and their children. Michigan DHS preformed this primarily by collaborating
with three subgrantees:

       •	
        	   YWCA - The YWCA of West Central Michigan provides services to
            victims of domestic violence through a domestic assessment center,
            which also provides counseling center services for sexual assault
            survivors.

       •	
        	   Catholic Social Services - Catholic Social Services of Washtenaw
            County provides a "Family Time" program that facilitates positive
            interaction between parents and children in a safe setting.

       •	
        	   Underground Railroad, Inc. - This organization serves residents of
            Saginaw County who are victims of domestic violence, sexual
            assault, and stalking, and is the only provider of emergency shelter,
            services, leadership, and programs to end domestic and sexual
            violence in the community.

Our Audit Approach

       We tested compliance with what we consider the most important
conditions of the agreement. Unless otherwise stated in our report, the
criteria we audit against are contained in the Office of Justice
Programs (OJP) Financial Guide, the Code of Federal Regulations, Office of
Management and Budget (OMB) Circulars, and the award documents. 2 The

       1
          For the purposes of this report, we refer to the grantee as the Michigan DHS, and we
intend for this collective reference to include the Domestic Violence Prevention and Treatment
Board.
      2
          According to the OVW special conditions, the recipient agrees to the requirements as
set forth in the current edition of the Office of Justice Programs (OJP) Financial Guide.


                                            - 2 ­

OJP Financial Guide serves as a primary reference manual to assist award
recipients in fulfilling their fiduciary responsibility to safeguard grant funds
and ensure funds are used for the purposes for which they were awarded.
We tested Michigan DHS’s:

      •	
       	    Accounting and Internal Controls to determine whether the
            grantee had sufficient accounting and internal controls in place
            for the processing and payment of funds and controls were
            adequate to safeguard grant funds and ensure compliance with
            the terms and conditions of the grant;

      •	
       	    Grant Drawdowns to determine whether grant drawdowns
            were adequately supported and if the grantee was managing
            grant receipts in accordance with federal requirements;

      •	
       	    Grant Expenditures to determine the accuracy and allowability
            of costs charged to the grant;

      •	
       	    Budget Management and Control to examine the amounts
            budgeted and the actual costs for each approved cost category
            and determine if the grantee deviated from the approved
            budget, and if so, if the grantee received the necessary
            approval;

      •	
       	    Federal Financial Reports and Progress Reports to
            determine whether the required reports were submitted on time
            and accurately reflected grant activity;

      •	
       	    Accomplishment of Grant Requirements and Objectives to
            determine if the grantee met or is capable of meeting the grant’s
            objectives and whether the grantee collected data and developed
            performance measures to assess accomplishment of the
            intended objectives; and

      •	
       	    Monitoring of Subgrantees to determine if the grantee
            adequately monitored the subgrantees’ performance to ensure
            they adhered to the terms and conditions of the award.

      We also performed limited work and confirmed that Michigan DHS was
not required to contribute any local matching funds, did not receive
reimbursement for accountable property or indirect costs, and did not
generate any program income. Therefore, we did not perform testing in
these areas.



                                       - 3 ­

                                FINDINGS

      We determined that Michigan DHS generally complied with grant
      guidelines with respect to its internal control environment,
      drawdowns and expenditures, budget management and control,
      federal financial and progress reports, grant requirements, and
      monitoring of subgrantees.

       We performed audit work at Michigan DHS’s main office in Lansing,
Michigan, where we obtained an understanding of the accounting system
and reviewed a sample of grant expenditures. In addition, we conducted
site visits to all three subgrantees to perform transaction testing. We
reviewed the criteria governing grant activities, including the OJP Financial
Guide, relevant OMB Circulars, and the Code of Federal Regulations. In
addition, we reviewed grant documents, including the application, award,
budgets, and financial and progress reports. We also interviewed key
personnel at Michigan DHS and at each subgrantee office.

Accounting and Internal Controls

      According to the OJP Financial Guide, grant recipients are required to
establish and maintain accounting and internal control systems to account
accurately for funds awarded to them. Further, the accounting system
should ensure, among other things, the identification and accounting for
receipt and disposition of all funds, funds applied to each budget category
included in the approved award, expenditures governed by any special and
general provisions, and non-federal matching contributions.

      We interviewed key Michigan DHS personnel, including the Executive
Director, Project Director, Grant Program Coordinator, and an Analyst
regarding Michigan DHS’s financial management system, record-keeping
practices, and methods for ensuring adherence to the terms and conditions
of the award. We also reviewed Michigan DHS’s policies, procedures, and
accounting records to assess its risk of non-compliance with laws,
regulations, guidelines, and terms and conditions of the award.

Financial Management System

       The OJP Financial Guide requires grantees to establish and maintain a
system of accounting and internal controls that adequately identifies and
classifies grant costs. The system must include controls to ensure that funds
and other resources are used optimally and expenditures of funds are in
conformance with the general and special conditions applicable to the
recipient. Further, the OJP Financial Guide states that grantees should


                                     - 4 ­

establish and maintain program accounts that will enable, on an individual
basis, the separate identification and accounting of the receipt and
disposition of all funds and the application of all funds to each budget
category included within the approved award.

       Michigan DHS utilizes a statewide system that processes payments for
all contracts. Subgrantees submit a form for payment, which contains
unique contract numbers and codes that identify the subgrantee and informs
the state payment office what grant to bill. The amounts billed and
reimbursed reflect dollars actually spent. Analyst technicians review each
form to ensure that the amounts are allowable and that they are not over
the line item’s budget. After the technician has checked the values, the
contract analyst responsible for each subgrantee reviews them once more.
Executive leadership then conducts a final review and sends the form to the
payment office for check issuance.

      We also interviewed staff and management, and we observed
accounting activities and processes to assess risk. The grantee has a Policy
Handbook that covers all aspects of internal controls. Based on our
interviews with Michigan DHS personnel, the procedures and processes
included in the manual were current and were being followed by employees.

Audit

      Michigan DHS is a unit of state government, which was included in a
department-wide audit conducted by the Michigan Office of the Auditor
General for the period of October 1, 2008, through September 30, 2010.
The results of this audit were reported in the Single Audit Report obtained
from the Michigan Office of the Auditor General, which was prepared under
the provisions of OMB Circular A-133. We reviewed the independent
auditor’s assessments, which disclosed no weaknesses, noncompliance
issues, or crosscutting findings related to Michigan DHS’s grant management
of Department of Justice grants.

Grant Drawdowns

      We reviewed Michigan DHS’s process for requesting OJP
reimbursement for grant-related costs to ensure that reimbursement
requests were supported adequately by official accounting records and were
in accordance with federal requirements. Michigan DHS’s Executive Director
said that they calculate their drawdown requests by taking the total
cumulative expenditures less any prior reimbursements. We compared the
grantee’s general grant ledger to OJP's drawdown report for the inception of
the grant through June 30, 2011. From a cumulative perspective, we noted


                                    - 5 ­

        that Michigan DH S's expen dit ures exceeded its drawdow ns during o ur a udit
        peri od .

              TABLE 2. COMPARISON OF DRAWDOWNS TO MICHIGAN DHS's 

                            RECORD OF EXPENDITURES 

                                                            GRANT
                                                        E X PENDITURE S
                                        GRANT
                                                       PER A CC OUNTIN G                                       CUMULATIVE
                                     EXPENDITURES                                             C UMULATIVE
   DATE OF                                              RE CO RDS f O R      CUMULATIVE                        E X PENDITURE S
                   AM OUNT DRAWN    PER A CCOUNTIN G                                         E X PENDITURE S
DRAWOOWN PER                                             DRAWOO WN         DRAWOO WN S PER                          LE SS
                   D O WN PER OlP    RECO RD S FO R                                          PER MICHIG AN
     OJP                                                   PERI OD              OJP                            CUMULATIVE
                                      DRAWOOWN
                                        PERIO D
                                                             L,,,,                           DHS RE CORDS
                                                                                                               DRAWDO WN S
                                                       DRAWDOWN PER
                                                             OJP
  08/ 1 1 20 10         $ 4 2275         $58651               16376            $42275           $58651             $16376
  09 01 20 10             16372           1274 1               3631             5864 7           71392              1 274 5
  09/ 24 / 20 10          39,4 13         32,731               6 ,682           98,060          104 , 123             6 ,063
  12/ 07 20 10            29074           4 0368              11 294           127 134          144 4 91            1 7357
  12/ 20 20 10            17353                 0           ( 17353)           144487           144 4 91                   4
  02/ 02 2011             16253           36035               19782            16074 0          180 526             19786
  03/ 22 20 1 1           18087           24 24 9              6162            178827           204 775             2594 8
  06/ 09 2011             67814           52885           $ ( 14 929          $24 6641         $257660             $11 019
        TOTAL          246641            257 660
 Source . Office on Vio lence Against Wom en an d Mich igan DHS

        Grant Expenditures

                OVW rev ie wed and approved f unding fo r Michigan DH S in t wo
        ca t egori es : travel a nd co ntractual. Travel costs for t his proj ect we re for
        prov idin g t echnica l assist ance and t ra inin g oppo rtuniti es t hro ughout the
        st ate of Michigan and specifica ll y t o the t hree loca l super v ised v isitati on
        ce nters ( LSVC) . Cont ractu al cost s w ere fo r fundin g each of the three LSVCs
        t o increase and enh ance loca l super v ised v isitati o n center ca pabilit ies a nd
        fund proj ect coo rdin ati on. Table 3 shows the budgeted am o unts by
        approved cost ca teg o ry .

                        TABLE 3     . OVW -APPROVED BUDGET CATEGORIES
                                           ApPROVED
               C OST CATEGORY                                        DESCRIPTIO N OF PLANNED EXPENDITURES
                                            BUDGET

                                                             Costs for travel for t ech nical assist ance an d
         Travel
                                            $ 13,872         trainin g act ivities
                                                             Fun ding t o increase an d enhance local
         Contractua l
                                           636 0 00          su oelVised visitation centers
         TOTAL PROJECT COSTS              $649,872
           Source . Office on Vio lence Against Women

              As of June 9,2011 , t ot al grant- re lat ed expendit ures, as recorded in
        Michigan DH S's account ing records, we re $2 57,660 , and Michiga n DHS had


                                                            - 6 ­
been reimbursed a total of $246,641. To determine the accuracy and
allowability of costs charged to the grant, we reviewed a sample of travel
and contractual expenditures. We selected and reviewed five travel-related
expenditures totaling $2,638 that were incurred directly by Michigan DHS.
We determined that all transactions were accurate, supported, and allowable
under federal rules, regulations, and special conditions of the grant.

      The contractual expenditures were those incurred by the three
subgrantees, which Michigan DHS later reimbursed. Michigan DHS agreed to
certain budget categories that the subgrantees would be allowed to bill to
the grant program. This was enforced through formal contracts with all
three subgrantees. Michigan DHS provided us with the subgrantees’
statements of expenditures, and we visited each of the three subgrantees to
review the supporting documentation for these statements.

     The subgrantee contract expenditures fell into ten categories. Table 4
shows the categories and the amounts that we reviewed.




                                   - 7 ­

         TABLE 4   . SUBGRANTEE CONTRACT BUDGET CATEGORIES                             3

                               SAMPLE
     COST CATEGORY                              DESCRIPTION OF PLANNED EXPENDITURES
                               AMOUNT

 Salaries                      $76,388      Compensat ion paid to employees

 Occupancy                     17,599       Cost of leased or owned buildings and offices
                                             Funds allocated to cover costs of services not
 Fringe Benefits
                               15360        included as salaries and waaes
                                            Any non-consumable item costing more than
                                            $5,000 that is not attached or included as part
 Equ ipme nt
                                            of the cost of the facility (e .g. , copier/ network
                                6722        mai ntenance)
                                            Consumable or non-consumable item costing
 Supplies
                                5293        less tha n $5 000 (e.a .. pencils , paper)
                                            Cost for written (e.g., fax) or verbal (e.g.,
 Commu nication
                                1,822       telephone) com munication
                                             Expenses related to the contract that are not
                                            chargeable to other line item s ( e.g.,
 Miscellaneous
                                            professional liability insurance, classified
                                 893        advertisements, reqistration fee for traininq)
                                            Cost of staff t ravel incu r red by personnel on
 Local Transportation
                                 859        official business
                                            Pa yment to a third party by the subgrantee for
                                            a service to be delivered t o Michigan DHS
 Contracted Services
                                            (e .g. , Directors ' and Officers ' liability
                                 747        insurance)
                                            The value of a purchase for a specific client
 Specific Assistance                        and given to that client as part of a service
                                 262        delivery
 TOTAL SAMPLE AMOUNT
                             $125,945
 COSTS

 Source : Michigan DHS

      We judgmenta ll y selected 20 subgrantee expenditures - at least
1 from each budget category - associated with the grant program. The
selected tra nsactions totaled $125,945 of the total $636,000 in grant award
fund s budgeted to the subgrantees. After reviewing these tran sactions and
the related supporting documen tati on, we determined the transactions were
supported , accurately posted to the accounting records, and allowable under
federal rules, regulations, and specia l co nditions of the grant.




      3 The budget categories above are a composite of t he budgets from all t hree

subgrantees. Not all subgrantees expended funds in all categories .


                                           -8 ­
Budget Management and Control

       According to the terms and conditions of the grant, a grantee may
transfer funds between approved budget categories without OVW approval if
the total transfers are 10 percent or less than the award amount. Requests
for transfers of funds between budget categories exceeding 10 percent must
be submitted to OVW for approval. We compared the amounts charged to
the approved budget amounts for each budget category. Although we
observed the movement of dollars between budget categories, none of the
amounts exceeded 10 percent of the total award amount. Therefore,
Michigan DHS was not required to obtain prior approval from OVW for these
transfers.

Grant Reporting

      The OJP Financial Guide states that two types of reports are to be
submitted by the grantee. Federal Financial Reports (FFR) provide
information on monies spent and the unobligated amounts remaining in the
grant. Program progress reports provide information on the status of grant­
funded activities and other pertinent information.

Federal Financial Reports

      According to the OJP Financial Guide, prior to October 1, 2009, FFRs
were to be submitted within 45 days of the end of the calendar quarter.
Beginning with the reporting period October 2009 through December 2009,
grantees were required to submit quarterly FFRs within 30 days of the end of
the calendar quarter. The final FFR must be submitted no later than 90 days
following the end of the grant period. Funds or future awards may be
withheld if reports are not submitted or if reports are submitted late. We
reviewed five of the FFRs submitted during our audit period. As shown in
the following table, Michigan DHS submitted all five reports on time.

      TABLE S    . TIMELINESS OF FEDERAL FINANCIAL REPORTS
   REPORT                                                       DATE     DAYS
   NUMBER           REPORT PERIOD             DUE DATE       SUBMITTED   LATE
       1        04(01(10    -   06(30(10          07(30(10    07(20(10    0
       2        07(01(10    -   09(30(10          10(30(10    10(27(10    0
       3        10(01(10    ­   12(31(10          01(30(11    01(24(11    0
       4        01(01(11    -   03(31(11          04(30(11    04(25(11    0
       5        04(01(11    -   06(30(11          07(30(11    07(19(11    0
    Source: Office of Justice Programs



                                           -9 ­
      We al so co mpared the grant- related expend itures reflected on the
FFRs to Michiga n DHS's accounting record s. As shown in the fo llowi ng table,
the ex pen ditures repo rted on t he FFRs m a t ched t hose in th e gra nt ledge r
and in the draw dow n req uests.

         TABLE 6     . ACCURACY OF FEDERAL FINANCIAL REPORTS
                           FFR REPORT                               EXPENDITURES
              FFR                            EXPENDITURES
                           PERIOD END                                PER GRANT
            NUMBER                                 PER FFR
                               DATE                                    LEDGER
               1         06/30/ 20 10              $422 75            $4 2 275
               2         09/30/ 20 10               84859              84 859
               3         12/3 1/ 20 10              33606              33606
               4         03/3 1/ 20 11              4 9 2 50           4 9250
               5         06/30/ 20 11               59 26 5            59265
                       Total                      $269,255           $269,255
           Source . Office of Justice Progra ms

Progress Reports

       Acco rding to t he OJP Fin a ncial Gu ide, Categori cal Ass istance Progress
Re po rts a re due se m ia nnu a ll y o n Ja nu a ry 30 a nd Jul y 30 fo r t he life of th e
awa rd . We reviewed t hree prog ress reports submitted during t he awa rd and
foun d t hat a ll t hree of th e repo rts we re s ubmitte d by OJP's establis hed
dead line.

               TABLE 7     . TIMELINESS OF PROGRESS REPORTS
REPORT                                                                  DATE           DAYS
                     REPORT PERIOD                   DUE DATE
NUMBER                                                               SUBMITTED          LATE
   1        01 /01/20 10 - 06/30/20 10              0 7/30/2 01 0    0 7/30/201 0        0
   2        0 7 0 1 20 10 - 12 3 1 20 10            01 30 2011       01 30 2011          0
   3        01 0 1 20 11 - 06 30 20 11              0 7 30 2011      0 7 21 2011         0
Source : Office of Justice Progra ms

      As fo r the content of t he progress report ing , we fo und t hat t he reports
did not incl ude a compa ri son of actual accomplishme nts to the objectives
est abl is he d for t he pe ri od. In st ead , th e repo rts incl uded detaile d ,
cumulati ve techn ica l results of wo rk perfo rm ed during th e report ing peri od .
In our judg ment, t he reports prov ided adequate in fo rm at ion to determ ine
th e status of t he t asks pla nn ed fo r the period.




                                            - 10 ­
Compliance with Grant Requirements

      We reviewed the special conditions of the grant award and identified
25 key requirements. Examples of these conditions are: (1) submit
quarterly Federal Financial Reports, (2) submit semiannual progress reports
that describe project activities during the reporting period, (3) agree that
grant funds will not support activities that may compromise victim safety,
(4) work collaboratively with its project partners to implement the grant
project, and (5) adhere to the OJP Financial Guide. No instances of non­
compliance with any of the rules and regulations were identified.

Program Performance and Accomplishments

       The Executive Director of Michigan DHS stated that there were no
changes to the timelines for achieving the objectives outlined in the grant
application. The main goal is to support supervised visitation and safe
exchange services. This is accomplished by: (1) providing survivors who
are custodial parents a safe, affordable, age and activity-appropriate means
of visitation and exchange; (2) increasing Michigan’s capacity to monitor
existing visitation centers and assisting in the start-up of new centers;
(3) providing post-separation advocacy services for survivors and their
children; (4) providing culturally appropriate supervised visitation, advocacy,
and batterer’s intervention services; (5) increasing state and local
coordination and response; and (6) increasing the capacity of LSVC, courts,
domestic violence, and batterer intervention staff, Memorandum of
Understanding (MOU) partners, and consulting committees.

       We observed grant-related activity, reviewed documentation, and
interviewed Michigan DHS and subgrantee staff to determine whether the
grant objectives that were identified in the grant application were being met.
Michigan DHS has ensured that each of the grant objectives are being met
by offering different types of staff training, participating in meetings, and
conducting site visits. Michigan DHS also established and enhanced the MOU
partnerships. They have developed the “State Visitation Network,” the
primary goal of which is to reach out to as many people and organizations as
possible. New interactions with organizations are treated as an opportunity
to include them in all future training events and conference calls. In
addition, Michigan DHS personnel regularly write articles to inform court
systems about the services provided by the grant. Therefore, we found that
Michigan DHS and its subgrantees were fulfilling the goals and objectives of
the grant. Michigan DHS officials stated that they want the program to have
a broad impact.




                                    - 11 ­
Monitoring Subgrantees

      Michigan DHS officials informed the audit team that the primary
method for ensuring that grant objectives are being achieved is by reviewing
and reacting to the semiannual progress reports provided by the
subgrantees. Subgrantees are responsible for maintaining client records
within six specific criteria. In addition, subgrantees are required to submit
and report service documentation. This can take the form of program
narrative and statistical data, as well as information contained in forms
furnished by Michigan DHS.

       According to Michigan DHS officials, they consider all interactions with
subgrantees as a training opportunity. Much of the technical assistance
Michigan DHS provides involves teaching the subgrantees how to interact
with court partners, correctly share and document information, and
communicate with troubled parents. In addition, Michigan DHS has
developed a plan to meet with subgrantees through the award period. We
found that onsite meetings occur multiple times per year, and during these
meetings, Michigan DHS officials work directly with subgrantees to make
effective use of existing resources.

       We reviewed three progress reports pertinent to our audit period.
They were generally complete, and we were able to confirm how
Michigan DHS compiled the information for and submitted the official
progress reports to OVW. We also received copies of training itineraries and
programs utilized by Michigan DHS and subgrantee officials during official
training meetings. In addition, Michigan DHS receives and reviews all single
audits conducted on their subgrantees. Further, Michigan DHS informed us
that it performs two types of formal reviews of its subgrantees:

      •	
       	   Peer review - a review in which Michigan DHS sends an audit
           team to review subgrantees every 3 to 5 years. These teams
           review financial documents, determine whether subgrantees are
           following by-laws, and conduct personnel reviews. In addition, the
           audit team interviews people who routinely interact with the
           subgrantees.

      •	
       	   Contract Monitoring review - this type of review, conducted every
           2-3 years, involves reviewing what the subgrantee says it spent
           and comparing it to the contract.

      We reviewed the results of a peer review conducted on YWCA and a
contract monitoring review conducted on Underground Railroad, Inc. The
overall results of both reviews did not indicate any significant concerns, and


                                     - 12 ­

a contract monitoring review for Catholic Social Services is scheduled for
later this year. We also examined Michigan DHS’s policies and procedures
for conducting these two types of reviews. We found all polices complied
with federal rules, regulations, and special conditions of the grant, and
appear to be an effective mechanism for Michigan DHS to provide oversight
of its subgrantees.

Views of Responsible Officials

       We discussed the results of our review with grantee officials
throughout the audit and at a formal exit conference, and we have included
their comments as appropriate.




                                   - 13 ­

                                                                APPENDIX I



           OBJECTIVES, SCOPE, AND METHODOLOGY

      The purpose of this audit was to determine whether reimbursements
claimed for costs under the grant were allowable, supported, and in
accordance with applicable laws, regulations, guidelines, and terms and
conditions of the grant, and to determine program performance and
accomplishments.

      We conducted this performance audit in accordance with generally
accepted government auditing standards and included such tests as were
considered necessary to accomplish our objectives. Those standards
require that we plan and perform the audit to obtain sufficient,
appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We believe that the evidence
obtained provides a reasonable basis for our findings and conclusions
based on our audit objectives.

      Our audit concentrated on, but was not limited to, the expenditures
and reimbursements from April 1, 2010, through June 30, 2011. This was
an audit of OVW grant number 2009-CW-AX-K003, for which Michigan DHS
was awarded a total of $649,872. In conducting our audit, we reviewed
FFRs and progress reports and performed sample testing in award
expenditures, including salary and fringe benefit costs. Our testing was
conducted by judgmentally selecting a sample of expenditures, along with a
review of internal controls and procedures for the grant that we audited.
Judgmental sampling design was applied to obtain broad exposure to
numerous facets of the grant reviewed, such as dollar amounts, expenditure
category, or risk. This non-statistical sample design does not allow for
projection of the test results to all grant expenditures or internal controls
and procedures. In total, Michigan DHS had drawn down $246,641 and
recorded grant-related costs totaling $269,255 as of June 30, 2011. We
tested 25 transactions, which totaled $128,583. More specifically, we tested
$2,638 in travel costs and $125,945 in contract costs that included salary
and fringe benefit costs.

      We tested compliance with what we consider to be the most important
conditions of the grant agreement. Unless otherwise stated in our report,
the criteria we audit against are contained in the OJP Financial Guide, the
Code of Federal Regulations, OMB Circulars, and the award documents. We
reviewed Michigan DHS’s grant activities and performance in the following
areas: (1) internal control environment; (2) drawdowns; (3) grant
expenditures, including personnel costs; (4) budget management and
control; (5) federal financial and progress reports; (6) grant award
requirements; (7) program performance and accomplishments; and


                                   - 14 ­

(8) monitoring of subgrantees. We determined that matching costs,
accountable property, indirect costs, program income, and monitoring of
contractors were not applicable to this grant.

       We performed limited testing of source documents to assess the
timeliness and accuracy of FFRs, reimbursement requests, expenditures, and
progress reports; evaluated performance to grant objectives; and reviewed
the grant-related internal controls over the financial management system.
We tested invoices associated with transactions shown in Michigan DHS’s
grant ledger as of June 30, 2011. However, we did not test the reliability of
the financial management system as a whole and reliance on computer-
based data was not significant to our objectives.

      Our audit included an evaluation of Michigan DHS, a unit of state
government, which was included in a department-wide audit conducted by
the Michigan Office of the Auditor General. The results of this audit were
reported in the Single Audit Report obtained from the Michigan Office of the
Auditor General for the period of October 1, 2008, through September 30,
2010. The Single Audit Report was prepared under the provisions of Office
of Management and Budget Circular A-133. We reviewed the independent
auditor’s assessments, which disclosed no weaknesses, noncompliance
issues, or cross-cutting findings related to Michigan DHS’s grant
management of Department of Justice grants.




                                   - 15 ­

                                                                                                  APPENDIX II 

                                              AUDITEE RESPONSE 





                                September 6, 2012

                                Carol S. Taraszka
STATE O F MICHIGAN              Chicago Regional Audit Manager
Department of                   U.S. Department of Justice
                                Chicago Regional Audit Office
Human                           500 West Madison Street, Suite 1121
Services                        Chicago, Illinois 60661 -2590

www.michig an.gov               Dear Ms. Taraszka:

Maura Corrigan, Director               I am in receipt of your Augus t 30, 2012 draft: audit report on the Office on
                                Violence AgalllSt Women Safe Haven"s Grant awarded to the Michigan Department
                                of Human Services Domestic Violence Prevention and Treatment Board. I have
MICHIGAN DOMESTIC               reviewed the draft report and have no comments.
VIOLENCE PREVENTION
AND TREATMENT BOARD                     TIlank you for the professionalism exhibited by yO\lJ" audit team.
Grand Tower Suite 506
P.O. Box 30037                  Slllcerely,
Lansing. MI 48909
Tel: (517) 335-6388
Fa x: (517) 241-8903
                                I       '       .
BOARD MEMBERS                   I ~c-"
ens Sullivan, Ph.D., Chair
Jefffie Cape, LMSW
Candace Cowling, MSW
James A. Fink, J.D.
                                Cc: MDVPT Board Members
Kathryn A. Hoover, M.Ed.            DHS Director Mama Comgan
Hon. Asny Ronayne Krause            Michelle Dodge, OVW
Hon. Edward Sosnick


Deb! Cain, Executive Director




RICK SNYDER. Governor




                                                             - 16 ­
                                                                                          APPENDIX III

                                                                                                      



OFFICE ON VIOLENCE AGAINST WOMEN RESPONSE

                                         





                                                          u.s. Depa rtment of .. ustiee
                                                          U.S. Department        ustice
                                                          Office on Violence Against Women
                                                           Washingt on, D.C. 20530


                                                          September 25, 2012




  MEMORANDUM


 TO:                           Carol S. Taraszka
                               Regional
                               Regiona l Audit Manager
                               Chicago Regional Audit Office

 FROM:
 FROM :                        Bea HansOl,.x1   ~
                                   Hanso ,.,....r-1
                                      Dir~ctb l
                               Acting Dir:ctb l
                               Office on Violence Against Women

                               Rod ney Samuels
                               Rodne y            .~
                                                  .-fv6
                               Audit Liaison/Staff Accountant
                               Office on Violence Against Women

 SUBJECT:                      Audit of the Office on Violence Against Women Safe Havens
                                         the
                               Grant Awarded to the Michigan Department of Human Services
                                                                           Human
                               Lansing , Michigan
                               Lansing,

 This memorandum is in response to your correspondence dated August 30 , 2012 transmitting the
                                                                        30,       trans
 above audit report for the Michigan Department of Human Services. After reviewing the
 referenced report and notin g that there were no recommendations to resolve, the Office on
                        noting      there
 Violence Against Wom en (OVW) has no further comments to be made regarding your review.
                   Women              has                                               review.

 We appreciate the opportunity to review and comment on the draft report. If yo u have any
                                                                     report. you
 questions or require additional information , please contact Rodney Samuel s of my staff at
 questions require               information,                        Samuels ormy
 (202) 514 -9820.
       514-9820.

 cc    Angela
       Ange la Wood
       Accounting
       Account ing Officer
       Office on Violence Against Women (OVW)

       Louise M. Duhamel, Ph.D.
       Acting Assistant Director
                        Direc tor
       Audit Liaison Group
       Justice Management Division




                                              - 17 ­

         Baran
Virginia Baran
Program Specialist
Office on Violence Against Women
Office             Against




                                   - 18 ­

